                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




             Audit Report

   USDA’s Progress To Implement the
Improper Payments Information Act of 2002




                          Report No. 50601-0010-Ch
                                     February 2006
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                        Washington, D.C. 20250




DATE:         February 13, 2006

REPLY TO
ATTN. OF:     50601-0010-Ch

TO:           Charles Christopherson
              Chief Financial Officer

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      USDA’s Progress to Implement the Improper Payments Information Act of 2002


Reducing improper payments continues to be a priority of Congress and a major focus of the
President’s Management Agenda. The Office of Inspector General (OIG) identified this as one
of six management challenges confronting the Department of Agriculture (USDA) because of
problems identified in our audits and because the breadth and complexity of the Department’s
programs and delivery systems make fulfillment of this initiative difficult.

Our fiscal year (FY) 2004 review of the Department's implementation of the Improper Payments
Information Act of 2002 (IPIA) disclosed that the work performed and results generated by the
agencies were ineffective in providing the information necessary to ascertain if improper
payments were being made and to what extent. Risk assessments, which are to be conducted to
establish the susceptibility of programs to improper payments, were not conducted in a
meaningful manner. As a result, only six of 179 programs were identified as "high risk," and
five of those were identified independently by the Office of Management and Budget (OMB),
requiring statistical projections of dollar losses and remediation plans. We attributed this poor
performance to weak Departmental guidance.

We recommended, and the Office of the Chief Financial Officer (OCFO) promptly agreed, that
the risk assessment process be significantly strengthened through a measure that would quantify
evidence as to a program’s degree of susceptibility for improper payments. We provided OCFO
with a detailed description in our audit report as to how this methodology should be conducted.
We also assisted the Department by providing training to the agencies. The caliber of OCFO’s
revised guidance was so high that OMB sought to share it with other Departments. We note that
OCFO’s efforts, in our view, have been laudable throughout the process.
Charles Christopherson                                                                          2


In FY 2005, we reviewed five agencies’ implementation of the OCFO strengthened guidance.
Although we identified improvements, we concluded that, in general, the five agencies had not
fully implemented the guidance. This was attributed to the individual agencies not establishing
controls over the risk assessment process to ensure adherence to the instructions. As a result, the
five agencies could not support their conclusions that the nine programs we reviewed were at
low risk for improper payments.

In our opinion, not prescribing controls that provide reasonable assurance IPIA requirements
were met indicates management’s attention and commitment to this critical area is questionable.
Although USDA added five new programs as high risk in FY 2005, only two of those were
supported by risk assessments (the remaining three were based on the judgment of agency
officials). For USDA to fulfill its responsibilities under a law devised to save and safeguard
taxpayers’ assets and foster efficiency in Government operations, considerable management
attention is warranted.

To emphasize the USDA’s commitment to identifying and reducing improper payments, we
recommend that you meet with the Under and Assistant Secretaries to ensure upper
management’s oversight of the risk assessment process. Attached is our letter report detailing
the status of agencies’ activities in fulfilling OMB’s requirements for the high risk programs.

cc:
Charles F. Conner
Deputy Secretary
                                                       Attachment
                                USDA’s Progress to Implement the
                            Improper Payments Information Act of 2002
                                         50601-10-Ch
                                        February 2006

BACKGROUND

The Improved Financial Performance section of the President’s Management Agenda of
2002 (PMA), issued in 2001, emphasized the need to identify erroneous payments and to set
goals to reduce those payments. In order to establish a baseline of improper payments across the
Government, agencies were to include, beginning with their 2003 budget submissions,
information on actual and target improper payment rates, where available, for benefit and
assistance programs over $2 billion. The Office of Management and Budget’s (OMB) Circular
A-11, Preparation and Submission of Budget Estimates for 2001 and 2002, Section 57,
instructed agencies with specially identified programs to submit estimated improper payment
data, assessments of agency efforts to minimize improper payments, and action plans to correct
and prevent those payments with their initial budget submissions for FYs 2003 and 2004. Four
USDA programs were subject to OMB requirements: FNS’ Food Stamp Program (FSP),
National School Lunch and Breakfast Program (NSLP), and Special Supplemental Nutrition
Program for Women, Infants, and Children (WIC); and the Farm Service Agency’s (FSA)
Commodity Loan Program (now known as the Marketing Assistance Loan Program).

In September 2004, 1 we issued an audit report on FNS compliance with the OMB requirements.
We reported that FNS had provided improper payment estimates for the FSP but had not
provided any quantitative information regarding improper payments in the NSLP and WIC
programs. At the time of the audit, FNS had only begun to develop plans to estimate improper
payments in the NSLP and WIC. FNS officials were concerned that they lacked statistically
valid nationwide estimates for those programs. However, we found that FNS could have used
available information from numerous sources—such as OIG audits, contracted studies, and
internal reviews, qualified as necessary—to establish baseline information on improper payments
in response to OMB’s data requests.

In November 2002, the President signed the Improper Payments Information Act of 2002 (IPIA),
which expanded the prior reporting requirements to include all programs that may have
significant improper payments. The Act required agencies to annually review all programs and
activities and identify those that may be susceptible to significant improper payments and to then
estimate the annual amount of those payments. Agencies were to report to Congress those
programs and activities where the annual estimated improper payments exceeded $10 million. In
May 2003, OMB issued guidance to agencies for estimating and reporting improper payments,
including a provision that agencies base their estimates on valid statistical samples. 2 OMB
defined significant improper payments as those exceeding an annual threshold of $10 million and
2.5 percent of program payments. 3




1
  Food and Nutrition Service Compliance with Improper Payments Reporting Requirements, Report No. 27601-0032-Ch, dated September 2004.
2
  Implementation Guidance for the Improper Payments Information Act of 2002, Public Law 107-300.
3
  See OMB Memorandum M-03-13, dated May 21, 2003.
                                                                                                                          Attachment

                                                                                                                                           2

The OMB guidance also required agencies to report, beginning in the FY 2004 Performance and
Accountability Report (PAR), an annual estimated amount for all programs identified with
significant improper payments. Within USDA, OCFO was designated as the lead agency for
coordinating and reporting the Department’s efforts to implement the IPIA. OCFO provided
instructions to agencies in August and October 2003.

In FY 2004, we reviewed the OCFO’s actions to implement the IPIA, specifically its role in
assessing the Department’s programs for the risk of improper payments. We conducted audits in
six agencies 4 to determine whether their risk assessments were performed in compliance with the
IPIA and the implementing guidance of OMB and OCFO. 5 We found that risk assessments
performed by the six agencies were not adequate to determine their programs’ susceptibility to
improper payments. As a result, we recommended that OCFO issue more prescriptive, detailed
guidance to help agencies properly assess and report the risk of improper payments in their
programs. OCFO concurred with our recommendation to strengthen its guidance and agreed to
monitor the agencies’ implementation of the new guidance, which was issued in November and
December 2004.

The revised guidance detailed a process for the agencies to follow in performing risk
assessments, including tests of transactions, to support their determinations regarding their
programs’ risk for improper payments. OCFO also provided a template for the agencies to use to
make the risk assessment process uniform. In addition, OCFO hosted monthly meetings, to
which all agencies were invited, to discuss IPIA issues and any problems encountered with the
revised guidance.

OBJECTIVES

The objective of this audit was to assess USDA agencies’ efforts to implement OCFO’s revised
guidance regarding improper payment reporting requirements, including (1) the agencies’ actions
to conduct risk assessments of selected programs and report results to OCFO, and (2) the
agencies’ conclusions that the programs were at low risk for improper payments. We also
requested information from the 6 agencies regarding their actions to quantify the extent of
improper payments and implement corrective actions for the 11 USDA programs determined to
be at significant risk for improper payments.




4
  The six agencies were Cooperative State Research, Education and Extension Service; Farm Service Agency; Natural Resources Conservation
Service; Rural Business-Cooperative Service; Rural Housing Service, and Rural Utilities Service.
5
  USDA Compliance with the Improper Payments Information Act of 2002, Report No. 50601-0008-Ch, dated January 2005.
                                                                                                                           Attachment

                                                                                                                                          3

SCOPE AND METHODOLOGY

We performed the audit at USDA Headquarters in Washington, D.C. We obtained the revised
guidance OCFO provided to agencies in November and December 2004, as well as the risk
assessments for 286 programs that agencies had submitted to OCFO as of April 30, 2005. We
performed cursory reviews of the risk assessments for 86 of the largest programs, representing
42.5 percent of the total estimated dollar outlays. We relied on OCFO’s color-coded ranking of
the programs based on the FY 2005 estimated outlays. 6

For the 86 risk assessments, we analyzed the vulnerability criteria, outlay dollars, and the extent
and adequacy of the risk assessment documentation provided to OCFO. Based on this review,
we selected nine programs in five agencies and visited the selected agencies to review their risk
assessments and supporting documentation. The 9 programs had estimated outlays totaling
$13.2 billion for FY 2005 and represented 31 percent of the estimated outlays for the USDA
programs that fell into OCFO’s top 3 categories for program outlays. (See exhibit A for a list of
the programs audited.) The results of our audits are summarized here and were reported to the
appropriate agencies through individual audit reports.

In addition, for those programs determined to be at high risk for improper payments, we
requested an update from the appropriate agencies on their actions to comply with the IPIA, and
the OMB and OCFO guidance. We requested information on the agencies’ efforts to (1) quantify
program error rates and the dollar value of the errors, including a timeline for completion of the
actions, and (2) their implementation of corrective actions to reduce the errors. Although we did
not audit the information received from the agencies, we have included a summary of the status
of the high-risk programs in this report.

This audit was conducted during the period July through September 2005. The audit was
performed in accordance with Government Auditing Standards.

FINDINGS AND RECOMMENDATIONS

We found that all five of the agencies included in our review need to strengthen controls to
ensure they fully comply with OCFO guidance for implementing the IPIA. Although OCFO
provided the agencies with detailed written guidance, supplemented by monthly meetings to
provide further assistance, the agencies did not collect and analyze sufficient evidence in
performing their risk assessments. As a result, the agencies were not able to fully support their
decisions that the nine programs we reviewed were, in fact, at low risk for improper payments.

In regard to the Department’s 11 high-risk programs, officials from the responsible agencies
reported to us that they have completed the required statistical samples for 7 of the high-risk
programs, with the remaining 4 statistical samples expected to be completed between 2006 and
2009.

6
  OCFO divided the programs into six categories: Blue - $0-10 million; Green - $10-50 million; Orange - $51-200 million;
Purple - $200-400 million; and Black-$400 million+. The final category, known as “Red Programs,” was established for those programs already
designated by agencies as high risk.
                                                                                                                        Attachment

                                                                                                                                4

Risk Assessment Documentation Did Not Support Low Risk Rankings

Our audit disclosed that agencies lacked documentation to support their conclusions that the nine
programs we reviewed were at low risk for improper payments. Specifically, we found that
transactions were not always tested in sufficient numbers to provide reliable information as to the
adequacy of internal controls to deter improper payments; the scope of the tests performed could
not be determined from the support maintained by the agencies; and the results of the tests were
not always analyzed to determine their impact on improper payments. We attributed this to a
general lack of controls over the risk assessment process to ensure that it adheres to OCFO’s
guidance. While we are unable to conclude that the programs reviewed are susceptible to
significant improper payments, we concluded that the agencies’ risk assessment documentation
is not sufficient to support their rankings of the programs as low risk.

As a result of our previous audit, 7 OCFO officials revised their IPIA guidance to provide more
detailed instructions to USDA agencies. The guidance directs agencies to work with their
program, financial, internal review, budget, and performance management staff to complete risk
assessments; list the internal controls in place to prevent improper payments for each of the
vulnerabilities identified; and test a judgmentally selected sample of transactions. The test of
transactions is intended to provide quantitative evidence of the adequacy of the design and
functionality of internal controls in place to mitigate improper payments. According to the
OCFO guidance, the sample of transactions tested should be sufficiently large to support the
agency’s assertion that internal controls are working, and agencies should use their professional
expertise to determine the appropriate sample size. Testing performed as part of a program’s
quality assurance process is acceptable, including State reviews, program reviews, and other
compliance or internal reviews.

We found that none of the risk assessments reviewed included an adequate test of transactions –
a key provision of the revised OCFO guidance. For instance, FSA tested only 22 payments from
a universe of over 13.7 million payments nationally for both the Direct and Counter-Cyclical
Programs and did not segregate the few transactions tested by program. The Rural Business-
Cooperative Service (RBS) did not provide information on the number of loans tested or the
universe from which they were selected. We could not determine the scope of the Rural Housing
Service (RHS) and Rural Utilities Service (RUS) tests of transactions because the tests
performed for RHS’ Community Facility Direct Loan Program included guaranteed loans in
addition to direct loans and the tests for RUS’ Water and Waste Grant Program included loans in
addition to grants. In neither case could we determine the type of transaction tested or the
universe from which they were selected. We also noted that the Cooperative State Research,
Education and Extension Service’s (CRSEES) test of transactions did not cover the post-award
phase; this was necessary to assess controls over the actual use of the grant funds.




7
    USDA Compliance with the Improper Payments Information Act of 2002, Report No. 50601-0008-Ch, dated January 2005.
                                                                                       Attachment

                                                                                                 5

Further, FSA, RBS, RHS, and RUS had not assessed the results of their tests of transactions to
determine their impact on improper payments. For example, the documented results of FSA’s
test of transactions for the Direct and Counter-Cyclical Programs did not confirm that 8 of the
22 payments tested were correct. Similarly, FSA could not locate documentation on 11 of the
25 transactions tested for the Crop Disaster Program. We also found that FSA tested the
transactions by recalculating the payments based on the forms received from field offices rather
than verifying that the information on the forms was accurate and the individual was actually
eligible for the amount of payment received.

In the most serious example of the agencies’ failure to follow OCFO guidance, FSA’s risk
assessments concluded that the four programs we reviewed were at low risk for improper
payments, even though the risk assessment documentation reported that audits and FSA’s own
County Operations Reviews would have supported a high risk rating. FSA officials stated that
they decided to rank the programs as low risk because the tests of transactions did not disclose
significant deficiencies in program controls. However, the FSA official responsible for the risk
assessments told us that he decided to rank these programs as low risk because of his personal
knowledge and experience with the programs. Although management’s experience and
knowledge can be useful, OCFO guidance specifies that the determination of a program’s risk
for improper payments should be based on a formal assessment of the vulnerabilities the program
is exposed to and the internal controls that exist to mitigate those vulnerabilities, and their
effectiveness confirmed by tests of transactions.

We also found that the agencies did not fully integrate their own internal reviews of program
compliance into the risk assessment process. For example, FSA officials have established
compliance activities in virtually all of their programs, as they mentioned in the risk assessments
provided to OCFO, yet they did not compile those results and analyze them to determine whether
any improper payments were disclosed. We reported this condition to FSA officials over a year
ago and, in response to a recently issued audit report, they agreed to integrate internal reviews
into the process. Risk assessment officials in the other agencies also cited internal reviews in
their risk assessments, but they did not obtain, analyze, and maintain the results of those reviews
in their files. As a result, they could not support the decisions they made based on this
information.

Officials of the agencies audited gave various reasons for the problems described above. We
were informed that sufficient staff was not assigned to conduct the risk assessments; responsible
staff members were unaware of requirements or incorrectly believed they met requirements when
they did not; managers used personal knowledge and experience to make determinations; and
managers complained that resources had not been made available to meet the IPIA mandate. In
our opinion, not prescribing controls that provide reasonable assurance IPIA requirements were
met indicates managements’ attention and commitment to this critical area is questionable.
                                                                                                                              Attachment

                                                                                                                                             6

Recommendation

We recommend that you meet with the Under Secretaries to emphasize the importance of the risk
assessment process as part of the PMA—specifically, the need to support conclusions made in
the risk assessment and to establish the methods and measures necessary to perform a credible
job.

Future Audit Efforts

The Department had 11 programs that agencies have determined are at high risk for improper
payments. (See exhibit B). We contacted the six agencies responsible for those programs and
requested information on each agency’s progress in performing a statistical sample of the
programs and estimating the amount of improper payments annually. We did not perform audit
work to verify agency officials’ responses or the validity of their sampling processes.

Five of the agencies—FNS FSP, Forest Service (FS), FSA, Natural Resources Conservation
Service (NRCS), and RHS—reported that they had performed the statistical sampling as required
for a total of seven of the high-risk programs, with estimated outlays of $37.4 billion. The error
rates ranged between 0.3 percent and 5.88 percent, and the improper payments identified by the
agencies totaled over $1.5 billion, with FNS’ FSP accounting for 90 percent of that amount.
Four of the agency managers also identified the causes of the improper payments and the
corrective actions they planned to take to mitigate them. 8 Of the seven programs, agency
officials (FSA) reported that the statistical sampling results projected to be less than $10 million
for two programs. As a result, the agency is not required to develop corrective action plans for
these programs.

FNS and the Risk Management Agency (RMA) had not performed statistical sampling for the
four other high-risk programs—FNS’ Child and Adult Care Food Program (CACFP), NSLP, and
WIC, and RMA’s FCIC Fund—to establish program error rates and identify improper payment
dollar amounts. The four programs had estimated outlays totaling $18.9 billion. FNS officials
reported to us that they started to sample the WIC program for vendor error and they reported to
OMB that results for all three programs will be available between 2006 and 2009, although they
did note that the WIC certification error measurement and a nationally representative study for
CACFP was dependent on funding being available. RMA revised its methodology for
determining program error rates in 2005. The new process includes a random sampling of
program policies, and the first results will be available in 2006.

As mentioned earlier, we only requested an informational update from the agencies; we did not
audit their statistical sampling processes or the information provided. However, we plan to
conduct an audit of the agencies’ efforts to comply with IPIA requirements for these high-risk
programs next.


8
  FSA had recently completed statistical sampling for its three high-risk programs. The contractor that performed the FSA sampling included
recommendations for each program tested, but FSA management did not report to us regarding the corrective actions they planned to take for the
MAL program for which improper payments were estimated in excess of $10 million.
Exhibit A – PROGRAMS AUDITED

             AGENCY                      PROGRAM                     AUDIT NUMBER


Cooperative State Research,       Extension Activities:       13601-0001-Ch
Education and Extension Service   Smith-Lever Act Section 3
(CSREES)                          (b) & (c) Funds


Farm Service Agency (FSA)         Direct Payment Program      03601-0013-Ch


FSA                               Crop Disaster – USA         Same
                                  Program


FSA                               Conservation Reserve        Same
                                  Program


FSA                               Counter-Cyclical            Same
                                  Payments Program


Rural Business-Cooperative        Business and Industry       34601-0004-Ch
Service (RBS)                     Guaranteed Loan Program


Rural Housing Service (RHS)       Direct Community Facility   04601-0011-Ch
                                  Loan Program


RHS                               Section 502 Rural Housing   Same
                                  Loan (Direct) Program


Rural Utilities Service (RUS)     Water and Waste Grant       09601-0001-Ch
                                  Program
Exhibit B – Status of High Risk Programs

                                       STATISTICAL    PERCENTAGE
                                                                    DOLLAR ERROR
 AGENCY          PROGRAM                 SAMPLE      ESTABLISHED
                                                                      IDENTIFIED
                                       PERFORMED     (ERROR RATE)

   FNS       Food Stamp Program            Yes          5.88%        $1,381,200,000

           Child and Adult Care Food
   FNS                                     No            N/A                   N/A
                    Program
               National School
   FNS         Lunch/Breakfast             No            N/A                   N/A
                  Program
             Special Supplemental
             Nutrition Program for
   FNS                                     No            N/A                   N/A
              Women, Infants and
               Children Program
                Wildland Fire
   FS           Management                 Yes          3.27%          $65,000,000
             Suppression Program
             Marketing Assistance
   FSA                                     Yes           0.7%          $44,800,000
                Loan Program
           Milk Income Loss Contract
   FSA                                     Yes           0.3%             $664,000
                    Program

   FSA     Loan Deficiency Program         Yes           0.8%           $4,500,000

            Farm Security and Rural
  NRCS                                     Yes          1.54%          $15,800,000
             Investment Programs
               Rental Assistance
   RHS       Program (Section 521          Yes          2.59%          $20,088,000
              Rental Assistance)

   RMA       FCIC Program Fund             No            N/A                   N/A

  TOTAL                                                              $1,532,052,000
Informational copies of this report have been distributed to:


Chief Financial Officer, Office of the Chief Financial Officer
       Attn: Audit Liaison Officer – Planning and Accountability Division   5
U.S. Government Accountability Office                                       1
Office of the Chief Financial Officer
       Director, Planning and Accountability Division                       1
Office of Management and Budget                                             1
